                     AUDIT REPORT
   Audit of NRC’s Compliance With 10 CFR Part 51 Relative
             to Environmental Impact Statements


                     OIG-13-A-20 August 20, 2013




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                          August 20, 2013


MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S COMPLIANCE WITH 10 CFR PART 51
                            RELATIVE TO ENVIRONMENTAL IMPACT STATEMENTS
                            (OIG-13-A-20)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements.

The report presents the results of the subject audit. The agency provided comments to
the report on July 22, 2013. The agency’s comments have been incorporated into the
report at Appendix D.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Sherri Miotla, Team Leader, Nuclear Materials & Waste Safety Audit Team,
at 415-5914.

Attachment: As stated
Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee
  on Reactor Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety
  and Licensing Board Panel
Margaret M. Doane, General Counsel
Brooke D. Poole, Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Nader Mamish, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Michael F. Weber, Deputy Executive Director for Materials, Waste,
  Research, State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director
  for Corporate Management, OEDO
Michael R. Johnson, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Reginald W. Mitchell, Assistant for Operations, OEDO
Cynthia Carpenter, Director, Office of Administration
Thomas Rich, Director, Computer Security Office
Roy P. Zimmerman, Director, Office of Enforcement
Mark A. Satorius, Director, Office of Federal and State Materials
  and Environmental Management Programs
Cheryl L. McCrary, Director, Office of Investigations
James Flanagan, Director, Office of Information Services
Miriam L. Cohen, Chief Human Captial Officer, Office of the
   Chief Human Capital Officer
Glenn M. Tracey, Director, Office of New Reactors
Catherine Haney, Director, Office of Nuclear Material Safety
  and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Vonna L. Ordaz, Director, Office of Small Business and Civil Rights
James T. Wiggins, Director, Office of Nuclear Security
  and Incident Response
William M. Dean, Regional Administrator, Region I
Victor M. McCree, Regional Administrator, Region II
Cindy Pederson, Regional Administrator, Region III
Steven Reynolds, Regional Administrator, Region IV
          Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



EXECUTIVE SUMMARY

   BACKGROUND

       The National Environmental Policy Act

       The National Environmental Policy Act of 1969 (NEPA) established a
       national policy to encourage productive and enjoyable harmony between
       man and his environment, promote efforts that will prevent or eliminate
       damage to the environment, and enrich the understanding of ecological
       systems and natural resources important to the United States. To
       implement NEPA, Federal agencies must undertake an assessment of the
       environmental effects of their proposed actions prior to making a decision.
       The two major purposes of the NEPA process are better informed
       decisions and citizen involvement.

       NEPA requires that Federal agencies prepare a detailed statement on the
       environmental impacts and effects, alternatives to the action, and
       irreversible commitments of resources involved in the action. This
       detailed statement is called an Environmental Impact Statement (EIS).

       NRC’s NEPA Role

       The Nuclear Regulatory Commission’s (NRC) regulations to implement
       NEPA are found in Title 10, Code of Federal Regulations, Part 51 (10 CFR
       Part 51). NRC’s process for preparing an EIS begins when the agency
       receives an application for a proposed action that requires an EIS. A
       typical NRC environmental review includes analyses of impacts to specific
       resource areas, including air, water, animal life, natural resources, and
       property of historic, archeological, or architectural significance. In its
       NEPA review, NRC also evaluates cumulative, economic, social, cultural,
       and environmental justice impacts.

       NRC’s Commitments to the Public

       The purposes of NEPA and its implementation dovetail with NRC’s
       organizational values of openness and transparency, as expressed in the
       Principles of Good Regulation and the Strategic Plan. NRC activities
       generate a great deal of public interest. For their participation to be
       meaningful, stakeholders must have access to clear and understandable
       information about NRC’s role, process, activities, and decisionmaking.




                                           i
        Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



OBJECTIVE

     The audit objective was to determine whether NRC complies with the
     regulations in 10 CFR Part 51 relative to the preparation of environmental
     impact statements.

RESULTS IN BRIEF

     Areas of Current Noncompliance

     In recent years, NRC has taken steps to enhance its NEPA reviews and
     procedures. These initiatives have generated important discussions and
     provide a context for long-term progress. However, the Office of the
     Inspector General (OIG) has identified areas of noncompliance with 10
     CFR Part 51 relative to disclosure and public involvement. In order to
     clearly communicate the results of and involve the public in its
     environmental reviews, NRC management should strengthen its EIS
     preparation process by:

        •   Publishing a Record of Decision (ROD) that complies with
            10 CFR 51.102 and 51.103.

        •   Publishing an EIS that complies with the format provided in
            10 CFR Part 51, Appendix A.

        •   Performing all regulatory requirements for scoping for EISs that tier
            off of a generic EIS.

RECOMMENDATIONS

     This report makes six recommendations to bring the agency into
     compliance with 10 CFR Part 51 relative to the preparation of EISs.

AGENCY COMMENTS

     On July 22, 2013, NRC provided comments to the draft report. The
     agency stated its belief that its NEPA implementation activities have been
     fully compliant with the relevant regulations in 10 CFR Part 51. OIG’s
     central message in the report is that through lack of compliance with
     NRC’s NEPA-implementing regulations, the agency has made it difficult
     for stakeholders to access information developed in environmental
     reviews and may have omitted opportunities for public participation in
     certain environmental reviews. Appendix D contains NRC’s comments

                                         ii
   Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



and Appendix E contains OIG’s analysis of the agency’s comments. The
agency said it will consider OIG’s recommendations as part of the
agency’s continuous improvement efforts because the recommendations
could help enhance effectiveness, efficiency, and consistency across NRC
programs in implementing NEPA.




                                   iii
           Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



ABBREVIATIONS AND ACRONYMS

   ASLB        Atomic Safety and Licensing Board

   ASLBP       Atomic Safety and Licensing Board Panel

   CFR         Code of Federal Regulations

   EIS         Environmental Impact Statement

   FSME        Office of Federal and State Materials and Environmental
               Management Programs

   NEPA        The National Environmental Policy Act of 1969

   NMSS        Office of Nuclear Material Safety and Safeguards

   NRO         Office of New Reactors

   NRR         Office of Nuclear Reactor Regulation

   NRC         Nuclear Regulatory Commission

   OIG         Office of the Inspector General

   ROD         Record of Decision




                                           iv
                    Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



TABLE OF CONTENTS



    EXECUTIVE SUMMARY ....................................................................................... i

    ABBREVIATIONS AND ACRONYNMS ................................................................ iv

        I.          BACKGROUND .................................................................................... 1
        II.         OBJECTIVE ......................................................................................... 4
        III.        FINDINGS ............................................................................................ 4

               A.       Records of Decision Not in Full Compliance With
                        Regulations ..................................................................................... 5

               B        NRC EISs Do Not Follow the Required Format............................. 12

               C.       NRC Not in Full Compliance With Scoping
                        Regulations ................................................................................... 17

        IV.         CONSOLIDATED LIST OF RECOMMENDATIONS........................... 27
        V.          AGENCY COMMENTS ...................................................................... 28

    APPENDICIES

               A.       MAJOR STEPS IN EIS PROCESS ............................................... 29

               B.       OBJECTIVE, SCOPE, AND METHODOLODY ............................. 30

               C.       SAMPLING METHODOLODY....................................................... 33

               D.       AGENCY COMMENTS ................................................................. 35

               E.       OIG ANALYSIS OF AGENCY COMMENTS ................................. 45




                                                          v
                   Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



I.     BACKGROUND

       The National Environmental Policy Act

               The National Environmental Policy Act of 1969 (NEPA) established a
               national policy to encourage productive and enjoyable harmony between
               man and his environment, promote efforts that will prevent or eliminate
               damage to the environment, and enrich the understanding of ecological
               systems and natural resources important to the United States. To
               implement NEPA, Federal agencies must undertake an assessment of the
               environmental effects of their proposed actions prior to making a decision.
               The two major purposes of the NEPA process are better informed
               decisions and citizen involvement.

               NEPA requires that for a major Federal action significantly affecting the
               quality of the human environment, Federal agencies must prepare a
               detailed statement on the environmental impacts and effects, alternatives
               to the action, and irreversible commitments of resources involved in the
               action. This detailed statement is called an Environmental Impact
               Statement (EIS).

               NEPA also established the White House Council on Environmental Quality
               to monitor and foster Federal agency compliance with NEPA. The Council
               on Environmental Quality promulgated regulations to ensure that agency
               procedures produce high quality environmental information, make that
               information available to the public and to agency decisionmakers, and
               ultimately to make "better decisions” as stated in NEPA. The Council on
               Environmental Quality regulations require Federal agencies to develop
               their own implementing procedures. 1

       NRC’s NEPA Role

               The Nuclear Regulatory Commission’s (NRC) regulations to implement
               NEPA are found in Title 10, Code of Federal Regulations, Part 51 (10 CFR
               Part 51), “Environmental Protection Regulations for Domestic Licensing



1
 NRC revised its environmental regulations to meet the Council on Environmental Quality requirement to
develop NEPA implementing procedures.
                                                    1
   Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



and Related Regulatory Functions.” Part 51 identifies licensing actions
that require the preparation of an EIS, including issuance of:

       •       An early site permit for a nuclear power reactor.

       •       A combined license to construct and operate a nuclear
               power reactor.

       •       A license renewal for an operating nuclear power reactor.

       •       A license to possess and use special nuclear material for
               processing and fuel fabrication or conversion of uranium
               hexafluoride.

       •       A license to possess and use source material for uranium
               milling or production of uranium hexafluoride.

       •       A license for a uranium enrichment facility.

NRC’s process begins when the agency receives an application for a
proposed action that requires an EIS. Once NRC considers the
application complete and “accepts” it for review, an environmental review
to comply with 10 CFR Part 51 and NEPA begins, paralleling the separate
agency review for compliance with its technical or “safety” regulations. A
typical NRC environmental review includes analyses of impacts to specific
resource areas, including air, water, animal life, natural resources, and
property of historic, archeological, or architectural significance. In its
NEPA review, NRC also evaluates cumulative, economic, social, cultural,
and environmental justice impacts.

The major steps in NRC’s process for conducting this review and
preparing the EIS are outlined in Appendix A of this report. Several steps
provide opportunities for public involvement throughout preparation of the
EIS. The Record of Decision (ROD) ties together the results of the
environmental review and serves as an important vehicle for informing the
public of the agency’s conclusions and decision.




                                    2
        Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



NRC’s Commitments to the Public

     The purposes of NEPA and its implementation dovetail with NRC’s
     organizational values of openness and transparency, as expressed in the
     Principles of Good Regulation and the Strategic Plan.

     Principles of Good Regulation

     NRC has a longstanding goal of conducting its regulatory responsibilities
     in an open manner, and keeping the public informed of the agency’s
     regulatory, licensing, and oversight activities. In pursuing its mission to
     protect public health and safety and the environment, NRC strives to
     adhere to the Principles of Good Regulation – independence, openness,
     efficiency, clarity, and reliability. More specifically, in the Principles, NRC
     says nuclear regulation is the public’s business, and it must be transacted
     publicly and candidly. Furthermore, NRC commits that the public must be
     informed about and have the opportunity to participate in the regulatory
     process as required by law. Additionally, NRC states that open channels
     of communication must be maintained with Congress, other government
     agencies, licensees, and the public.

     NRC’s Strategic Plan 2008-2013

     Ensuring appropriate openness explicitly recognizes that the public must
     be informed about, and have a reasonable opportunity to participate
     meaningfully in NRC’s regulatory processes. NRC activities generate a
     great deal of public interest. For their participation to be meaningful,
     stakeholders must have access to clear and understandable information
     about NRC’s role, processes, activities, and decisionmaking. In the
     Strategic Plan published in 2008, NRC adopted strategies to achieve
     openness goals, including:

                •   Communicating about NRC’s role, processes, activities, and
                    decisions in plain language that is clear and understandable
                    to the public.

                •   Initiating early communication with stakeholders on issues of
                    substantial interest.


                                         3
              Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



           When NRC updated its 2008-2013 Strategic Plan in 2012, the agency
           affirmed the importance of openness strategies to its effectiveness. The
           revised plan notes that “public stakeholders must have timely access to
           clear and understandable information.” Further, the plan states that
           “participation allows members of the public to contribute ideas and
           expertise so that the NRC can make regulatory decisions with the benefit
           of information from a wide range of stakeholders.”


II.    OBJECTIVE

           The audit objective was to determine whether NRC complies with the
           regulations in 10 CFR Part 51 relative to the preparation of environmental
           impact statements. Appendix B to this report contains information on the
           audit scope and methodology.


III.   FINDINGS

           In recent years, NRC has taken steps to enhance its NEPA reviews and
           procedures. For example, NRC has contracted to bring courses from the
           Duke University Environmental Leadership Program to NRC to develop a
           cadre of NEPA professionals in the agency. In addition, the agency’s
           NEPA Executive Steering Committee was formed to identify common
           issues for NEPA implementation across NRC’s program offices, including
           best practices and areas needing guidance. These initiatives have
           generated important discussions and provide a context for long-term
           progress. However, the Office of the Inspector General (OIG) has
           identified areas of noncompliance with 10 CFR Part 51 relative to
           disclosure and public involvement. In order to clearly communicate the
           results of and involve the public in its environmental reviews, NRC
           management should strengthen its EIS preparation process by:

                  •       Publishing a ROD that complies with 10 CFR 51.102 and
                          51.103.

                  •       Publishing an EIS that complies with the format provided in
                          10 CFR Part 51, Appendix A.



                                               4
                   Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



                       •       Performing all regulatory requirements for scoping for EISs
                               that tier off of a generic EIS.

       A. Records of Decision Not in Full Compliance With Regulations

               NRC offices with EIS preparation responsibilities do not publish a ROD
               that complies with the requirements in 10 CFR Part 51. NRC regulations
               provide specific criteria for the publication of a ROD and what must be
               included in a ROD. NRC does not publish a ROD that complies with its
               regulations because within the agency there are incorrect and varying
               interpretations of what the regulations require. Thus, NRC is not in
               compliance with its regulations. As a result, NRC (1) does not adequately
               notify the public, including Congress, Federal agencies, government
               partners and other stakeholders, 2 of its decision and the basis of that
               decision and (2) undermines its extensive efforts to be clear, open, and
               transparent.

               NRC Regulations Require a Concise Public ROD

               Any Commission decision for which an EIS is prepared must include or be
               accompanied by a ROD. A ROD is a document that explains NRC’s
               decision, describes the alternatives considered, discusses potential
               environmental effects, and summarizes license conditions and monitoring
               programs adopted in connection with mitigation of environmental impacts.
               The ROD closes the NEPA process. 10 CFR 51.102 and 51.103 are the
               NRC regulations that require publication of a ROD and state what it must
               contain.

               10 CFR 51.102

               Section 51.102 specifies that for any action for which an EIS has been
               prepared, the EIS must include or be accompanied by a concise public
               ROD. If a hearing is held on the proposed action, the initial decision of the
               presiding officer will constitute the ROD. If the proposed action can only
               be taken by the Commissioners acting as a collegial body, the final

2
 Government partners include tribal governments, State governments, and local or municipal
governments. Other stakeholders include public interest groups and any other interested member of the
public.

                                                    5
                    Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



                decision of the Commission will constitute the ROD. The designated NRC
                staff director3 is responsible for preparation of the ROD, except for
                instances when a hearing is held on the proposed action or the action is
                concluded as a result of a Commission decision.

                10 CFR 51.103

                Section 51.103 prescribes what all RODs must include, regardless of
                whether a hearing is held. Table 1 depicts these specifications.

                Table 1. Requirements for a ROD

                       51.103(a): The ROD must be clearly identified and must:

    (1)         State the decision.

                Identify all alternatives considered by the Commission in reaching the decision,
                state that these alternatives were included in the range of alternatives discussed in
    (2)
                the EIS, and specify the alternative(s) which were considered to be
                environmentally preferable.
                Discuss preferences among alternatives based on relevant factors, including
                economic and technical considerations where appropriate, NRC’s statutory
    (3)         mission, and any other essential considerations of national policy, which were
                balanced by the Commission in making the decision and state how these
                considerations entered into the decision.
                State whether the Commission has taken all practicable measures within its
                jurisdiction to avoid or minimize environmental harm from the alternative selected,
    (4)         and if not, to explain why those measures were not adopted. Summarize any
                license conditions and monitoring programs adopted in connection with mitigation
                measures.
                In making a final decision on a license renewal action pursuant to Part 54 of this
                chapter, the Commission shall determine whether or not the adverse
    (5)
                environmental impacts of license renewal are so great that preserving the option of
                license renewal for energy planning decisionmakers would be unreasonable.
                                                                                Source: 10 CFR 51.103(a)



3
 Section 51.4 defines the NRC staff director as the, (1) Executive Director for Operations, (2) Office of
Nuclear Reactor Regulation (NRR) Director, (3) Office of New Reactors (NRO) Director, (4) Office of
Nuclear Material Safety and Safeguards (NMSS) Director, (5) Office of Federal and State Materials and
Environmental Management Programs (FSME) Director, (6) Office of Nuclear Regulatory Research
Director, (7) Office of Governmental and Public Affairs Director, and (8) the designee of any NRC staff
director.
                                                     6
                    Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



                51.103(b) and (c)

                Additionally, a ROD meeting these requirements may be integrated into
                any other record prepared by NRC in connection with the action or may
                incorporate by reference material contained in the final EIS.

                NRC Does Not Publish a ROD that Complies With the Regulations

                For the sample of RODs provided by NRC and reviewed by OIG, NRC
                offices that prepare and publish EISs do not publish a ROD that complies
                with 10 CFR 51.102 and 51.103. OIG requested that NRC provide the
                RODs for 10 specific licensing actions. NRC responded to this request,
                providing documents that the offices asserted to be the ROD. See
                Appendix C for the specific licensing actions and OIG’s methodology in
                selecting those actions.

                The Documents Provided Are Not Concise

                The documents provided by NRC are not concise as required by 10 CFR
                51.102. For 4 of the 10 licensing actions, NRC provided multiple
                documents for each ROD. For example,

                        •       For a fuel cycle facility, NRC provided (1) the 6-page
                                materials license, (2) a 91-page decision from the Atomic
                                Safety and Licensing Board (ASLB), 4 and (3) a 116-page
                                decision from ASLB. 5

                        •       For another fuel cycle facility, NRC provided (1) the
                                materials license, (2) the Federal Register Notice for the
                                publication of the EIS, and (3) the Federal Register Notice
                                for the publication of the Safety Evaluation Report.

                        •       For each of the two Early Site Permits, NRC provided two
                                documents: (1) a 100+ page ASLB decision and (2) a
                                Commission Order.
4
 Decision Title: “First Partial Initial Decision (Uncontested/Mandatory Hearing on Safety Matters)” dated
April 8, 2011.
5
 Decision Title: “Second and Final Partial Initial Decision (Uncontested/Mandatory Hearing on
Environmental Matters)” dated October 7, 2011.
                                                     7
   Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



For an additional 4 of the 10 licensing actions, NRC provided a Federal
Register Notice notifying the public that NRC had issued a license. The
Federal Register Notices fail to state the required information, although
they refer the reader to the EIS for “further information.” However EISs
are not concise. They are lengthy and complex documents, as depicted in
Table 2.

Table 2. Length of EIS by Responsible Office

     Responsible
                               Range of Page Length of EIS
     NRC Office


           FSME                           570 to 749 pages


           NMSS                           493 to 537 pages


           NRO                            504 to 919 pages


           NRR                            309 to 751 pages

     Source: OIG analysis of NRC EISs in sample (See Appendix C)




                                    8
                         Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



                    Generally, the Documents Did Not Meet Regulatory Requirements for a
                    ROD

                    Generally, the documents provided by NRC did not comply with the
                    requirements of section 51.103(a), as depicted in Table 3. Table 3
                    represents OIG’s analysis of the documents provided by NRC in response
                    to OIG’s request.

                    Table 3. Compliance With 51.103(a) Requirements by Office

Office   State the      Identify       Specify the       Discuss        State whether     Summarize      Commission
         decision       alternatives   environmentally   preferences    all practicable   license        determination
         51.103(a)(1)   51.103(a)(2)   preferred         among          measures          conditions     for license
                                                                                                                  6
                                       alternative       alternatives   were taken to     and            renewal
                                       51.103(a)(2)      51.103(a)(3)   avoid             monitoring     51.103(a)(5)
                                                                        environmental     programs
                                                                        harm              51.103(a)(4)
                                                                        51.103(a)(4)

                                 7
FSME        YES            YES              NO                NO             NO               NO             N/A



NMSS        YES             NO              NO                NO             NO               NO             N/A


                                 7
NRR         YES            YES              NO                NO             NO               NO             NO


                               7
NRO         YES            NO               NO                NO             NO               NO             N/A

            Source: OIG analysis of documents provided by NRC for the sample of licensing actions (See Appendix C)




  6
    51.103(a)(5) states, “In making a final decision on a license renewal action pursuant to Part 54 of this
  Chapter, the Commission shall determine whether or not the adverse environmental impacts of license
  renewal are so great that preserving the option of license renewal for energy planning decisionmakers
  would be unreasonable.”
  7
    51.103(c) allows NRC to incorporate by reference material contained in the final EIS. Among
  documents sent to OIG in response to the request were Federal Register Notices from different offices.
  For two offices, FSME and NRR, the Federal Register Notices identified alternatives considered and refer
  to the EISs for further discussion. However, the NRO Federal Register Notices do not mention
  alternatives but only state where to locate documents associated with the licensing action, including the
  EIS.

                                                          9
   Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



NRC Offices Are Incorrectly Interpreting Regulations

NRC is not in compliance with 10 CFR 51.102 and 51.103 because the
offices that publish EISs have varying and incorrect interpretations of the
regulatory requirements. NRC managers gave varying responses as to
what constitutes a ROD. For example, a senior manager advised OIG
that “there is no such thing as a ROD in this [NRC] environment.” Another
senior manager said the ROD issue is an ongoing debate. Another senior
manager said that the license, Safety Evaluation Report, and EIS
constitute the ROD.

NRC staff also gave varying responses to what constitutes a ROD. For
example, some FSME staff said that the Federal Register Notice is the
ROD and others said the licenses or licensing documents are the ROD.
An NRR staff member advised that the Federal Register Notice constitutes
the ROD. Generally, NRO staff advised that the hearing or hearing
decision constitutes the ROD. However, it is not clear, from staff
responses, which document in the hearing record they consider to be the
ROD. Additionally, another NRO staff member advised that the license is
the ROD.

NRC Is Not in Compliance With Its Regulations

NRC is not in compliance with the requirements for publishing a ROD in
sections 51.102 and 51.103. As a result, NRC does not adequately notify
the public, including Congress, Federal agencies, government partners,
and other stakeholders, of its decision and the basis for its decision.

A senior official from another Federal agency noted he looked for RODs in
order to be more informed of the final decisions made by NRC, but found
none. Another staff member of the same agency advised she could not
find the information, for a specific licensing action, that should have been
in a ROD.

Some members of the public were unable to identify NRC RODs and had
difficulty with the information provided by NRC in lieu of a ROD. One
stakeholder stated that NRC makes NEPA information available to the
public by putting it on NRC’s Web site. However, according to the
stakeholder, the problem is there are voluminous amounts of data and it is

                                   10
          Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



     overwhelming to the average person. The information is not clear and
     concise, as required of a ROD. Another stakeholder opined that for a
     specific NRC licensing action that the stakeholder’s group commented on,
     there was no ROD. This stakeholder informed OIG of reminding NRC that
     a ROD is required according to NRC’s regulations. Another stakeholder
     said that NRC should summarize and simplify NEPA data so the average
     person can understand it. This stakeholder was experienced with NRC’s
     Web site and understands environmental documents; however, this
     stakeholder opined, without a ROD the general public would have a
     difficult time understanding the data.

     NRC does not publish a ROD that complies with its own regulations, and
     therefore does not adequately close the NEPA process. This fosters
     public skepticism that undermines the agency’s extensive efforts to be
     clear, open, and transparent.

Recommendations

     OIG recommends that the Executive Director for Operations:

     1.       Develop agencywide guidance for NRC staff to prepare and publish
              a concise public document that meets the requirements of 10 CFR
              51.102 and 51.103.

     2.       Implement the agencywide guidance to ensure that all offices will
              consistently prepare and publish a concise public document that
              meets the requirements of 10 CFR 51.102 and 51.103.




                                          11
        Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



B. NRC EISs Do Not Follow the Required Format

     NRC’s EISs do not follow the format described by 10 CFR Part 51,
     Appendix A. Appendix A to 10 CFR Part 51 identifies the format elements
     that must be included. NRC’s EISs do not follow the Appendix A format
     because controls are not in place to assure use of that format. Thus, NRC
     is not in compliance with its regulations. As a result, NRC (1) does not
     clearly present, in an accessible way, the proposed action, alternatives,
     and conclusions to stakeholders and (2) undermines its extensive efforts
     to be clear, open, and transparent.

     NRC Regulations Require a Specific Format

     Appendix A to 10 CFR Part 51 prescribes a format that EISs “should”
     follow. The stated purpose of the standard format is to encourage good
     analysis and clear presentation of the alternatives, including the proposed
     action. The Appendix A format requires each EIS to have the following
     elements:

            •       Summary. The regulations require a summary that
                    adequately and accurately summarizes the EIS. The
                    purpose of a summary is to stress the major issues, discuss
                    the areas of controversy, identify any remaining issues to be
                    resolved, and present the major conclusions and
                    recommendation.

            •       Index. The regulations require each EIS to have an index.

            •       Cover Sheet. The regulations require each EIS to have a
                    cover sheet that includes the name, address, and telephone
                    number of an individual at NRC who can provide further
                    information. The cover sheet must also list the State,
                    county, or municipality where the facility is located. Lastly,
                    the cover sheet is not to exceed one page.

     Appendix A allows a different format to be used, if there is a compelling
     reason to do so. However, if a different format is used, it “shall” include a
     summary, index, and cover sheet.

                                        12
                    Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



               EIS Format Does Not Meet Regulatory Requirements

               Based on OIG’s sample, NRC’s EISs do not follow the format required by
               10 CFR Part 51, Appendix A, regarding a summary, index, and cover
               sheet. OIG reviewed a sample of 10 EISs prepared by NRC for 10
               licensing actions. A list of those licensing actions and the methodology for
               OIG’s sample selection is in Appendix C of this report. None of the 10
               EISs reviewed fully met the Appendix A requirements for a summary or
               cover sheet. Only one of the EISs reviewed contained an index.

               Summary

               Each EIS contained an executive summary; however, none of the
               executive summaries adequately summarized the EIS or fully complied
               with the Appendix A requirements for a summary.

                        •       For one office, the summaries did not stress the major
                                issues considered, discuss areas of controversy, or identify
                                any remaining issues to be considered.

                        •       For another office, it is not clear whether the summaries
                                stress the major issues considered, 8 and the summaries did
                                not discuss the areas of controversy or identify any
                                remaining issues to be considered.

                        •       For another office, both summaries reviewed stressed major
                                issues considered and one identified remaining issues to be
                                considered. However, neither summary discussed areas of
                                controversy.

               Index

               Of the 10 EISs reviewed, 9 lacked an index. The sole EIS that contained
               an index included key NEPA terms such as “alternatives,” “mitigation,” and
               “scoping” as well as a reference to Federal agencies such as the

8
  It is not clear whether these summaries stressed the major issues considered because the summaries
included a summary of the environmental impacts for each resource area analyzed in the EIS. It is not
apparent that each resource area is a major issue. Each resource area is required to be assessed in
each EIS the office publishes.
                                                    13
   Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



Department of Energy and the Environmental Protection Agency and to
State agencies.

Cover Sheet

While all of the EISs reviewed did have a cover sheet, none of the 10 EISs
fully met the Appendix A requirements. Specifically:

       •       None of the cover sheets contained the name, address, and
               telephone number of an individual who could be contacted
               for further information.

       •       Four of the cover sheets did not contain the State, county, or
               municipality where the facility is located.

       •       None of the cover sheets contained the required information
               on a single page; instead, the information spanned three to
               five separate pages.

Controls Not in Place To Assure Proper Format

NRC EISs are not in compliance with the formatting requirements set forth
in 10 CFR Part 51, Appendix A. Although NRC managers said they
expect staff to follow the format prescribed in
Appendix A, these managers are allowing EISs to
be issued that are not properly formatted. The
EISs are missing key components prescribed in
Appendix A because controls assuring proper
formatting are not in place. Although each NRC
office that publishes an EIS has guidance that
staff must follow to standardize environmental
reviews, the “environmental standard review
plans” instruct staff only to follow the Appendix A Figure 1: NRC’s most recent final
format. There is no clear, agencywide guidance      EIS, published in four volumes.
to implement the requirements and thereby           Source: OIG

assure that EISs contain the key components.




                                   14
          Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



     NRC Is Not in Compliance With Its Regulations

     NRC is not in compliance with the format requirements for an EIS
     prescribed in 10 CFR Part 51, Appendix A. As a result, NRC is not
     presenting, in an accessible way, the proposed action, alternatives, major
     issues, controversies, remaining issues, and conclusions and
     recommendations to the public, including Congress, Federal agencies,
     government partners, and other stakeholders.

     OIG interviewed stakeholders who provided public comments on EISs
     published by NRC. Generally, the stakeholders opined that information
     provided is not clear. One stakeholder, a former Federal Government
     employee familiar with looking at documents, stated that NRC’s NEPA
     information is not clear or concise. This stakeholder further commented
     that reading and digesting the data provided by NRC is very difficult
     because the data is so voluminous. NRC ought to break down the
     information “in a common sense approach so the average person can do
     a quick read and learn how they may be impacted by the action,” this
     stakeholder explained. Another stakeholder opined that some of NRC’s
     EISs were long and complex and it was difficult for the stakeholder’s
     organization to understand everything. As a result, this stakeholder’s
     organization felt compelled to consult with other organizations to help
     them understand NRC’s information. Another stakeholder opined that the
     way NRC reports information is difficult to understand. NRC provides a lot
     of technical information, but the meaning of the information is not obvious,
     added this stakeholder.

     By not following the Appendix A format, NRC does not adequately present
     to the EIS reader the proposed action and alternatives considered by
     NRC. This inadequate presentation fosters public skepticism that
     undermines the agency’s extensive efforts to be clear, open, and
     transparent.

Recommendations

     OIG recommends that the Executive Director for Operations:

     3.       Develop agencywide guidance for NRC staff to comply with 10 CFR
              Part 51, Appendix A.

                                          15
     Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



4.       Implement the agencywide guidance to ensure that all EISs include
         all cover sheet information, a consistent summary format, and an
         index in compliance with 10 CFR Part 51, Appendix A.




                                     16
        Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



C. NRC Not in Full Compliance With Scoping Regulations

     NRC did not fully comply with scoping regulations for in-situ uranium
     recovery EISs that tier off of a generic EIS. NRC regulations require
     scoping when preparing an EIS and specify actions the agency must take
     during the scoping process. NRC did not fully comply with the scoping
     regulations because there is an incorrect understanding of the regulations
     related to scoping for EISs that tier off of a generic EIS. Thus, NRC is not
     in compliance with its regulations. By not fully complying with the
     regulations, NRC may exclude some interested persons who wish to
     participate in the process. Additionally, NRC undermines its extensive
     efforts to be clear, open, and transparent.

     NRC Regulations Require Scoping

     Scoping Requirements

     NRC is required to conduct an appropriate scoping process and publish a
     Notice of Intent when preparing an EIS, and NRC regulations specify
     actions the agency must take during the scoping process. Regulations for
     scoping enumerated in 10 CFR Part 51 describe a formal process initiated
     by the publication of a Notice of Intent to prepare the EIS. During the
     scoping process, the agency shall define the proposed action and receive
     input from stakeholders about the significant issues on which the EIS
     analysis should focus. A public meeting is one way to receive input, but is
     not required. The formal scoping process must be open to anyone who
     expresses an interest in participating. The formal scoping process
     concludes with the publication of a scoping summary report. This report
     characterizes and responds to all the input received during the formal
     scoping process and communicates to all participants what the agency
     learned in scoping and how scoping results will shape the environmental
     review.




                                        17
   Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



NRC’s regulations governing scoping for an EIS are summarized in
Table 4.

Table 4: NRC Scoping Regulations

                  NRC Scoping Regulations in 10 CFR Part 51

                                   When an EIS will be prepared, requires
           51.26(a)                preparation of a Notice of Intent and conduct an
                                   appropriate scoping process
                                   Scoping not required for a supplement as
           51.26(d)
                                   defined in 10 CFR 51.92
                                   Defines content of a Notice of Intent, including
                                   description of proposed scoping process;
             51.27                 address and deadline for written comments; and
                                   whether, where, and when a public meeting will
                                   be held
             51.28                 Defines scoping participants

             51.29                 Defines scoping for an EIS and its objectives
                                   Requires preparation of a scoping summary
           51.29(b)
                                   report
                                                 Source: OIG analysis of 10 CFR Part 51


Exception for Supplements

The regulations carve out certain exceptions to the requirement to conduct
a formal scoping process when preparing an EIS. One exception is when
a supplement to a final EIS is prepared when the proposed action
considered in the final EIS has not been taken. A supplement to the final
EIS will be prepared if:

       •       “There are substantial changes in the proposed action that
               are relevant to environmental concerns; or,




                                   18
                      Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



                          •       There are new and significant circumstances or information
                                  relevant to environmental concerns and bearing on the
                                  proposed action or its impacts.” 9

                  The scope of the supplemental EIS must be limited to the new information
                  or change in the proposed action. A formal scoping process need not be
                  conducted.

                  Tiering

                  NRC regulations provide for a practice known as tiering. In 10 CFR Part
                  51, Appendix A, tiering is defined by referring directly to and quoting the
                  Council on Environmental Quality definition. As a result, the Council on
                  Environmental Quality regulation 10 applies directly to NRC. Council on
                  Environmental Quality regulations define tiering as the development of a
                  broad or programmatic EIS that assesses the scope and impact of the
                  environmental effects that would be associated with an action at
                  numerous sites. Tiering is encouraged by Council on Environmental
                  Quality regulations and guidance and is intended to reduce repetitive
                  analyses and increase meaning for the public in EISs for similar actions.
                  When conducting subsequent environmental reviews of individual sites
                  within the program, the agency can concentrate on the unique, site-
                  specific features and impacts. If review of site-specific conditions shows
                  that the programmatic conclusions are applicable, relevant parts of the
                  broader, programmatic EIS can be incorporated by reference into the site-
                  specific document. According to the Council on Environmental Quality,
                  scoping should be performed whenever an EIS is prepared, including for
                  the subsequent, site-specific EISs that tier off of the programmatic EIS.




9
    A supplement to an EIS is defined in NRC regulations at 10 CFR 51.92.
10
  The Council on Environmental Quality regulations regarding tiering are found at 40 CFR 1502.20 and
40 CFR 1508.28.

                                                      19
                   Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



               Additionally,

                       “[s]coping may or may not include meetings, but the process should
                       involve interested parties at all levels of government, and all
                       interested private citizens and organizations. 11

               NRC refers to a programmatic EIS as a generic EIS.

               NRC Did Not Fully Comply With Scoping Regulations

               NRC did not fully comply with scoping regulations for in-situ uranium
               recovery EISs that tier off of a generic EIS. Two NRC program offices
               currently use a generic EIS and tiering in environmental reviews:

                       •       NRR published a generic EIS for the renewal of operating
                               reactor licenses.

                       •       FSME published a generic EIS for in-situ uranium recovery
                               facilities.

               Tiering by NRR

               When NRR prepares an EIS for renewal of an operating reactor license,
               the review includes a formal scoping process. The following steps are
               included:

                       •       The Notice of Intent is published to meet the requirements of
                               10 CFR 51.27.

                       •       A public meeting is held.

                       •       Written comments are received through e-mail or in hard
                               copy.




11
  Bear, Dinah, “NEPA at 19: A Primer on an ‘Old’ Law with Solutions to New Problems,” Environmental
Law Reporter, 1989, available on Council on Environmental Quality’s guidance Web page at
http://ceq.hss.doe.gov/nepa/regs/iii-11.pdf. Bear was the General Counsel for the Council on
Environmental Quality, and her article outlines NEPA’s purposes, scope, and implementation procedures.
                                                   20
   Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



       •       A scoping summary report is prepared, distributed to scoping
               participants, and included as an appendix to the draft and
               final EISs.

NRC’s 1996 rule that codified the findings of the generic EIS for operating
reactor license renewal specifically required a formal scoping process be
conducted when preparing the EIS for a license renewal application.

Tiering by FSME

By contrast, when NRC prepares site-specific EISs for applications for
new in-situ uranium recovery operations, the agency does not seek broad
public comment and specifically does not open a formal scoping period.
Notices of Intent to prepare EISs were published for six applications
received since publication of the generic EIS for in-situ uranium recovery.
Although one application has since been put on hold, NRC has published
final or draft EISs for five projects. Final EISs have been published for
three in-situ uranium recovery projects, and draft EISs have been
published for two proposed projects. Table 5 summarizes the information
regarding early public input as described in the six published Notices of
Intent.




                                   21
                      Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



      Table 5: Notices of Intent to Prepare EISs for New In-Situ Uranium Recovery
      Applications
                     Notices of Intent for New In-Situ Uranium Recovery Applications

    Facility      Date Published                    Information Provided by NRC                          Actions Omitted

                                     NRC staff met with Federal, State, and local government
                                                                                                       • No formal scoping
     Nichols                         agencies and public organizations in January 2009 as part
                                                                                                       process opened.
     Ranch          August 5, 2009   of a site visit to gather site-specific information. Staff also
                                                                                                       • No invitation for broad
   (complete)                        “contacted potentially interested tribes and local public
                                                                                                       public comment.
                                     interest groups via email and telephone.”
                                     NRC staff planned to place ads in newspapers requesting
                                     information and comments from the public regarding the            • No formal scoping
Antelope-Jab                         proposed action; also planned to “meet with and gather            process opened.
                   August 14, 2009
  (on hold)                          information from” local agencies and public interest groups       • No invitation for broad
                                     during a visit to the proposed site. “No public scoping           public comment.
                                     meetings” would be held.
                                     NRC staff met with Federal, State, and local government
                                                                                                       • No formal scoping
                                     agencies and public organizations in January 2009 as part
Moore Ranch                                                                                            process opened.
                   August 21, 2009   of a site visit to gather site-specific information. Staff also
 (complete)                                                                                            • No invitation for broad
                                     “contacted potentially interested tribes and local public
                                                                                                       public comment.
                                     interest groups via email and telephone.”
                                     NRC staff met with Federal, State, and local government
                                                                                                       • No formal scoping
                                     agencies and public organizations in January 2009 as part
  Lost Creek                                                                                           process opened.
                  September 3, 2009  of a site visit to gather site-specific information. Staff also
  (complete)                                                                                           • No invitation for broad
                                     “contacted potentially interested tribes and local public
                                                                                                       public comment.
                                     interest groups via email and telephone.”
                                     NRC staff planned to place ads in newspapers requesting
                                                                                                       • No formal scoping
                                     information and comments from the public regarding the
   Dewey-                                                                                              process opened.
                   January 20, 2010  proposed action. Also staff were “consulting” with various
Burdock (draft)                                                                                        • No invitation for broad
                                     Federal and State agencies, tribal entities, and potentially
                                                                                                       public comment.
                                     interested public interest groups.
                                     NRC staff planned to place ads in newspapers requesting
                                                                                                       • No formal scoping
                                     information and comments from the public regarding the
     Ross                                                                                              process opened.
                   November 16, 2011 proposed action. Also “met with and gathered information
    (draft)                                                                                            • No invitation for broad
                                     from” local agencies and public interest groups during a visit
                                                                                                       public comment.
                                     to the proposed site.
                                                                 Source: OIG analysis of NRC Notices of Intent




                                                        22
    Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



The Notices of Intent depict a range of approaches for seeking input for
site-specific environmental reviews. In four cases, NRC staff met with
State and local governments and other stakeholders before the Notice of
Intent was published. In the other two cases, however, the Notice of
Intent indicates that NRC staff planned to conduct such meetings. NRC
staff referred to these meetings with agencies, known tribes, and
previously-identified public interest groups as “targeted information
gathering.”

Beyond the meetings that were part of “targeted information gathering,” for
three projects – Nichols Ranch, Moore Ranch, and Lost Creek – no
additional public comment was sought to develop the scope of the site-
specific EIS. Notices of Intent for three other projects state that staff
planned to place advertisements in local media seeking public comment,
although no address or deadline for submitting comments was included in
any of the Notices of Intent. Two
of the environmental reviews for
which advertisements were
placed received some public
comments. In one draft EIS,
these comments were referred to
as “scoping” comments,
although neither a formal
opening nor closing date of the
                                      Figure 2: Public comments at a scoping meeting.
scoping process was included          Source: NRC
in the Notice of Intent.

In several of the Notices of Intent, NRC asserted that “NRC regulations do
not require scoping,” but then described activities normally conducted by
staff as part of the scoping process. These activities were conducted
without the opening of a formal scoping process, which would have
included in the Notice of Intent an invitation for broad public comment and
the publication of an address and deadline for submission of comments.

In practice, the site-specific review and assessment of impacts occurred
without a complete site-specific scoping process. The three completed
EISs reviewed by OIG and one of the drafts state that NRC staff considers
“the scope of the generic EIS to be sufficient for the purposes of defining
the scope” of the EIS for the specific site. The most recent draft EIS

                                    23
   Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



states that “NRC conducted scoping activities for the purposes of defining
the scope of the GEIS [generic EIS] and any future” EISs for specific sites
that tier off of the generic EIS. Thus, for the in-situ uranium recovery EISs
that have tiered off of the generic EIS to-date, NRC has determined the
scope of the site-specific EIS by using the generic EIS and has omitted
some opportunities for broad public comment.

Further, in the absence of a formal scoping process, NRC did not publish
a scoping summary report to characterize and respond to the comments
received from stakeholders. Also, there was no summary characterization
of or response to comments received during “targeted information
gathering” in face-to-face meetings, teleconferences, or as a result of
advertisements in local media.

Incorrect Understanding of Scoping Regulations

NRC did not fully comply with the scoping regulations because of incorrect
understanding of the regulations related to scoping for EISs that tier off of
a generic EIS. Specifically, NRC staff refer to the tiered site-specific EIS
as a “supplement” to the generic EIS, leading to the belief that the
exception in 10 CFR 51.26(d) applies to tiered EISs. Some NRC
managers assert that the public scoping process for the generic EIS for in-
situ uranium recovery suffices for subsequent, site-specific uranium
recovery applications.

However, during that generic EIS scoping process in 2007, NRC staff
emphasized in response to public comments that all applications would
receive a site-specific review. Staff also emphasized that there would be
a request for public input on scoping through a “scoping meeting” on site-
specific issues if an EIS were prepared for a future application. In this
way, NRC did not give public notice that the public scoping for the generic
EIS would serve as the scoping process for later EISs. The public,
defined broadly, was not able to comment on issues of significance for
specific sites because specific applications were not yet under
consideration during the scoping process for the generic EIS.




                                   24
   Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



Limiting Scoping Undermines NRC Transparency

NRC is not in compliance with its regulations for scoping in 10 CFR 51.26-
29. Public comment at an early stage in the environmental review enables
NRC to determine the scope of the issues to be addressed in the EIS, as
required by the regulations. By not seeking broad public comment, NRC
may not fully develop the scope of the issues to be addressed in the EIS.
Also, less opportunity for involvement and input may exclude some
interested persons who wish to participate in the process. As one NRC
staff member noted, “There are different issues that people really need for
the NEPA process to address and it is up to those in NRC responsible for
NEPA to report what they see and respond to what they are presented
with.”

For future EISs that tier off of an already-finalized generic EIS, the scoping
conducted during the generic EIS may become out-of-date. The scoping
conducted for the generic EIS for in-situ uranium recovery is more than 5
years old. Over time, methods of analysis and human communities
change. As a result, generic scoping becomes less meaningful.

Failure to conduct scoping and enhance public participation undermines
the agency’s extensive efforts to be clear, open, and transparent.
Although the level of public interest in proposed actions under NRC review
may vary, opening a formal scoping process to written comments and
preparing a scoping summary report remain important steps in the NEPA
process that are compatible with NRC’s objectives of providing
opportunities for meaningful public involvement. For members of the
public with an interest in or concerns about NRC-licensed projects, such
opportunities are valuable. When the opportunities are not available,
public skepticism is heightened. For example, one public commenter
about the generic EIS for in-situ uranium recovery reported feeling “a little
dubious” about the generic EIS because it appeared to be “a way to
streamline a process, and to keep the public out.”

Moreover, without ensuring correct understanding of scoping requirements
for EISs that tier off of a generic EIS, NRC might not conduct scoping for
site-specific EISs that tier off of a future generic EIS, based on the
precedent set.


                                   25
          Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



Recommendations

     OIG recommends that the Executive Director for Operations:

     5.       Develop agencywide guidance for all offices that prepare EISs to
              ensure that scoping is performed for all EISs that tier off of a
              generic EIS.

     6.       Implement the agencywide guidance to ensure that scoping is
              performed for all EISs that tier off of a generic EIS.

Summary and Conclusion

     The two major purposes of the NEPA process are better informed
     decisions and citizen involvement. In recent years, NRC has taken steps
     to enhance its NEPA reviews and procedures. However, through lack of
     compliance with 10 CFR Part 51, the agency has made it difficult for
     stakeholders to access information developed in environmental reviews
     and may have omitted opportunities for public participation in certain
     environmental reviews. This lack of compliance fosters public skepticism
     and undermines the agency’s extensive efforts to be clear, open, and
     transparent.




                                          26
             Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



IV.   CONSOLIDATED LIST OF RECOMMENDATIONS

          OIG recommends that the Executive Director for Operations:

             1. Develop agencywide guidance for NRC staff to prepare and publish
                a concise public document that meets the requirements of 10 CFR
                51.102 and 51.103.

             2. Implement the agencywide guidance to ensure that all offices will
                consistently prepare and publish a concise public document that
                meets the requirements of 10 CFR 51.102 and 51.103.

             3. Develop agencywide guidance for NRC staff to comply with 10 CFR
                Part 51, Appendix A.

             4. Implement the agencywide guidance to ensure that all EISs include
                all cover sheet information, a consistent summary format, and an
                index in compliance with 10 CFR Part 51, Appendix A.

             5. Develop agencywide guidance for all offices that prepare EISs to
                ensure that scoping is performed for all EISs that tier off of a
                generic EIS.

             6. Implement the agencywide guidance to ensure that scoping is
                performed for all EISs that tier off of a generic EIS.




                                             27
           Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



V.   AGENCY COMMENTS


        On July 22, 2013, NRC provided comments to the draft report. The
        agency stated its belief that its NEPA implementation activities have been
        fully compliant with the relevant regulations in 10 CFR Part 51. OIG’s
        central message in the report is that through lack of compliance with
        NRC’s NEPA-implementing regulations, the agency has made it difficult
        for stakeholders to access information developed in environmental
        reviews and may have omitted opportunities for public participation in
        certain environmental reviews. Appendix D contains NRC’s comments
        and Appendix E contains OIG’s analysis of the agency’s comments. OIG
        made no changes to the body of the report based upon the agency’s
        comments. The agency said it will consider OIG’s recommendations as
        part of the agency’s continuous improvement efforts because the
        recommendations could help enhance effectiveness, efficiency, and
        consistency across NRC programs in implementing NEPA.




                                           28
          Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements

                                                                                     Appendix A


MAJOR STEPS IN EIS PROCESS

             Source: OIG analysis of NRC regulations and guidance.


                                    Initial EIS Process
                                  Application Acceptance



                                       Notice of Intent



                                   Scoping Process
                                Scoping Summary Report




                             Environmental Impact Analysis




                                      Publish Draft EIS




                                      Public Comment




                                     Prepare Final EIS



                                   Publish ROD
                    Safety Review Completed, Licensing Decision




                                          29
               Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements

                                                                                          Appendix B


OBJECTIVE, SCOPE, AND METHODOLOGY

    OBJECTIVE

            The audit objective was to determine whether NRC complies with the
            regulations in 10 CFR Part 51 relative to the preparation of environmental
            impact statements. This audit is a spinoff audit — an offshoot from the
            Audit of NRC’s Implementation of Its NEPA Responsibilities.

    SCOPE

            This audit focused on reviewing the preparation of EISs published during
            the last 6 fiscal years. We conducted this performance audit at NRC
            headquarters (Rockville, Maryland) from January 2013 through April 2013.
            Internal controls related to the audit objective were reviewed and
            analyzed. Throughout the audit, auditors were aware of the possibility or
            existence of fraud, waste, or misuse in the program.

    METHODOLOGY

            Document Reviews

            The OIG audit team reviewed relevant criteria, including the National
            Environmental Policy Act of 1969, as amended, 10 CFR Part 51,
            “Environmental Protection Regulations for Domestic Licensing and
            Related Regulatory Functions,” and 40 CFR 1500, “Regulations for
            Implementing the Procedural Provisions of the National Environmental
            Policy Act.” Auditors received training in the implementation of the
            National Environmental Policy Act.

            OIG reviewed EISs and associated documents for 10 specific licensing
            actions from fiscal years 2007 through 2012. The sampling methodology
            used to select the EISs is described in Appendix C.




                                               30
   Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



The OIG team reviewed guidance and documents pertaining to the
preparation of EISs by NRC. Key documents reviewed included:

       •       NRC Commission Papers.
       •       NRC Staff Requirements Memoranda.
       •       NUREG-1555, Standard Review Plans for Environmental
               Reviews for Nuclear Power Plants, and NUREG-1555,
               Supplement 1, Operating License Renewal.
       •       NUREG-1748, Environmental Review Guidance for
               Licensing Actions Associated with NMSS Programs.
       •       NUREG-1437, Generic Environmental Impact Statement for
               License Renewal of Nuclear Plants.
       •       NUREG-1910, Generic Environmental Impact Statement for
               In-Situ Leach Uranium Milling Facilities.
       •       Agency and office-level guidance.
       •       Draft and final environmental impact statements.
       •       Federal Register Notices.
       •       Transcripts of public meetings.
       •       Communications plans.
       •       Hearing decisions.
       •       Council on Environmental Quality guidance.
       •       NRC correspondence with Federal agencies and tribal,
               State, and local governments related to environmental
               reviews.

Interviews

At NRC headquarters, auditors interviewed staff and management from
the Office of Federal and State Materials and Environmental Management
Programs, the Office of Nuclear Reactor Regulation, the Office of New
Reactors, the Office of Nuclear Material Safety and Safeguards, the Office
of the General Counsel, and the Atomic Safety Licensing Board Panel to
gain an understanding of their roles and responsibilities related to the
preparation of EISs. Auditors interviewed representatives of the Council
on Environmental Quality and the Government Accountability Office.
Auditors also conducted telephone interviews with representatives of
stakeholder organizations that had provided comments during NRC
environmental reviews.

                                   31
   Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



We conducted this performance audit in accordance with generally
accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective.

The audit work was conducted by Sherri Miotla, Team Leader; Levar Cole,
Audit Manager; Kristen Lipuma, Senior Analyst; Kevin Nietmann, Senior
Technical Advisor; and Amy Hardin, Auditor.




                                   32
                   Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements

                                                                                              Appendix C


SAMPLING METHODOLOGY

               The OIG audit team identified five types of NRC licensing actions issued in
               the past 6 fiscal years that required preparation of an EIS:

                       •       Operating reactor license renewals issued by the Office of
                               Nuclear Reactor Regulation.

                       •       Early site permits for new reactor facilities issued by the
                               Office of New Reactors.

                       •       Combined licenses for new reactor facilities issued by the
                               Office of New Reactors.

                       •       Licenses for uranium recovery facilities issued by the Office
                               of Federal and State Materials and Environmental
                               Management Programs.

                       •       Licenses for fuel cycle facilities issued by the Office of
                               Nuclear Material Safety and Safeguards.

               OIG then identified 32 licensing actions during the last 6 fiscal years,
               including 20 license renewals, 12 4 early site permits, 2 combined licenses,
               3 uranium recovery facilities, and 3 fuel cycle facilities. For document
               review, OIG elected to randomly select from each of the five types of
               licensing actions issued by the NRC in the past 6 years. The licensing
               actions were placed in chronological order within each group and
               numbered sequentially. Using the random number selection function in
               Microsoft Excel, the following licensing actions were randomly selected:

                       •       Reactor License Renewal: (1) License Renewal for Pilgrim
                               Nuclear Power Station and (2) License Renewal for
                               Columbia Generating Station.

                       •

12
  License renewals for Salem and Hope Creek were treated as a single licensing action because the
environmental reviews were combined in a single EIS.
                                                   33
   Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



       •       Early Site Permit for New Reactor: (1) Early site permit for
               the Grand Gulf site and (2) Early site permit for the North
               Anna site.

       •       Combined License for New Reactor: (1) Combined license
               for Vogtle Electric Generating Plant Units 3 and 4 and (2)
               Combined license for Virgil C. Summer Nuclear Station Units
               2 and 3.

       •       Uranium Recovery: (1) Materials license for Moore Ranch in-
               situ recovery project and (2) Materials license for Nichols
               Ranch in-situ recovery project.

       •       Fuel Cycle Facility: (1) Materials license for AREVA Eagle
               Rock Enrichment Facility and (2) Materials license for
               International Isotopes Fluorine Products, Inc., Uranium
               Deconversion Plant.

These are the 10 licensing actions for which OIG requested that the
agency provide the RODs and for which OIG reviewed the EIS for format
requirements.




                                   34
         Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements

                                                                                    Appendix D
AGENCY COMMENTS




                                         35
Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements




                                36
Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements




                                37
Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements




                                38
Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements




                                39
Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements




                                40
Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements




                                41
Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements




                                42
Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements




                                43
Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements




                                44
           Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements

                                                                                       Appendix E


OIG ANALYSIS OF AGENCY COMMENTS

        Where the agency commented that OIG is incorrect, OIG disagrees and
        reaffirms the accuracy of its statements.

        OIG’s central message in the report is that, through lack of compliance
        with NRC’s NEPA-implementing regulations, the agency has made it
        difficult for stakeholders to access the information developed in
        environmental reviews and may have omitted opportunities for public
        participation in certain environmental reviews.

        A finding by finding analysis of the agency’s formal comments follows.

        Finding A: Records of Decision Not in Full Compliance With Regulations

        The agency asserts that OIG relies on an over-emphasis of the
        requirement that RODs be concise and that the ROD can incorporate by
        reference material from the EIS. Additionally, the agency asserts that
        NRC’s unique adjudicatory process preempts the need for a ROD that
        meets the requirements of 10 CFR 51.103. Finally, the agency asserts
        that the NEPA Executive Steering Committee addressed the content of
        RODs and produced a memorandum for the NEPA-implementing program
        offices.

               OIG Response:

               Concise and Incorporation by Reference

               The OIG report does not rely on an over-emphasis of the
               requirement that a ROD be concise. 10 CFR 51.102(a) states “A
               Commission decision on any action for which a final environmental
               impact statement has been prepared shall be accompanied by or
               include a concise public record of decision.” [emphasis added]

               Regarding incorporation by reference, the OIG report does not use
               an impermissible conflicting interpretation of the regulations. 10
               CFR 51.103(b) allows a ROD to be integrated into any other record
               prepared by the Commission in connection with the action and 10
               CFR 51.103(c) allows a ROD to incorporate by reference material
               contained in a final EIS. However, 51.103(b) and (c) do not trump

                                           45
Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements




    the language in 51.102. Therefore, the agency’s assertion that
    “[b]ecause the regulations specifically allow RODs to be integrated
    in other documents or to reference EISs, the length of those
    documents is not the test for determining whether or not a ROD is
    concise” is misplaced. The mandatory regulatory requirement
    that a ROD be concise is as important as the permissible regulatory
    authority for the agency to integrate the ROD into another
    document or incorporate it by reference. OIG disagrees with the
    agency’s assertion that OIG’s conclusions “render Section
    51.103(b) and (c) meaningless.”

    Adjudicatory Process

    The agency asserts that in the context of NRC practice, its
    regulations are appropriately intended to ensure that the ROD will
    reflect the entire record of the environmental review, including
    matters considered in the adjudicatory process following the
    issuance of an EIS. However, this argument does not address the
    issue raised by the OIG report. The mandatory regulatory
    requirement of 51.102 is that the initial decision of the presiding
    officer is the ROD. The plain reading of 51.102(c) and 51.103(a) is
    that an initial decision of a presiding officer is a ROD and must
    meet ROD content requirements in 51.103(a).

    Additionally, the Atomic Safety and Licensing Board Panel (ASLBP)
    provided comments on the OIG Report. The ASLBP asserts that
    the one recommendation directed to it, is inappropriately directed to
    it and that “[i]n the absence of specific direction from the
    Commission, the ASLBP has no authority to develop guidance for
    the Staff concerning NEPA compliance.” OIG acknowledges the
    position of the ASLBP and agrees to remove the recommendation
    addressed to ASLBP.

    ASLBP’s comments bring to light an inconsistency with the
    adjudicatory process and NRC’s regulations. ASLBP’s jurisdiction
    is strictly limited to the subject matter of intervenors’ admitted
    contentions, which typically involve only specific, narrow safety and
    environmental issues. ASLBP asserts that because its jurisdiction
    is limited, it lacks the authority to enumerate the required ROD
    elements set forth in 51.103.
                                46
                     Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



                         Thus, ASLBP concludes that if 10 CFR 51.102 and 103 indicate
                         that a licensing board’s initial decision will constitute a ROD, the
                         regulations should be changed. Section 51.103 says that when a
                         hearing is held on the proposed action, the initial decision of
                         ASLBP will constitute the ROD. 13

                         This inconsistency highlights the need for NRC to consistently
                         prepare a ROD that meets the requirements of 51.102 and 51.103.

                         ROD Memo from the NEPA Executive Steering Committee

                         OIG reviewed this memorandum and disagrees with the assertion it
                         addressed “the content of the ROD to enhance transparency with
                         which the agency documents its regulatory decisions.” Instead, the
                         memorandum restated the regulations and emphasized that a
                         hearing pre-empts the requirement to prepare a ROD. Further, the
                         memorandum proposed to merely add the words “Record of
                         Decision” to Federal Register Notices to create an identifiable
                         document that could refer a reader to an EIS.

        Finding B: NRC EISs Do Not Follow the Required Format

        The agency asserts that the OIG report cannot support a conclusion of non-
        compliance because the format in 10 CFR Part 51, Appendix A is a not a
        regulatory requirement.


                OIG Response:

                Appendix A to 10 CFR Part 51 prescribes a format that EISs “should”
                follow. The stated purpose of the standard format is to encourage good




13
  Full Text of 10 CFR 51.102(c): “When a hearing is held on the proposed action under the regulations in
part 2 of this chapter or when the action can only be taken by the Commissioners acting as a collegial
body, the initial decision of the presiding officer or the final decision of the Commissioners acting as a
collegial body will constitute the record of decision. An initial or final decision constituting the record of
decision will be distributed as provided in § 51.93.” [emphasis added]


                                                     47
          Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



      analysis and clear presentation of the alternatives, including the proposed
      action. The Appendix A format requires each EIS to have a summary,
      index, and cover sheet.

      Appendix A allows a different format to be used, if there is a compelling
      reason to do so. However, if a different format is used, it shall include a,
      summary, index, and cover sheet.

Finding C: NRC Not in Full Compliance With Scoping Regulations

The agency asserts that the use of tiering is the same as a supplement to an
EIS. Additionally, the agency asserts that the scoping conducted for the generic
EIS for in-situ uranium recovery suffices for all site-specific EISs for in-situ
recovery projects. Finally, by adding annotations to Table 5 of the report, the
agency confounds public participation during scoping with public comments on a
draft EIS.


      OIG Response:

      Tiering and Use of a Supplement Are Not the Same

      Both NRC and the Council on Environmental Quality regulations for
      implementing NEPA distinguish the concepts of tiering and
      supplementation. The agency asserts that OIG believes that the finality of
      the generic EIS precludes supplementation, a misstatement of OIG’s
      argument that demonstrates the conflation of two distinct concepts.

      It is not the generic EIS’s finality that precludes supplementation. Rather,
      it is its generic nature that precludes supplementation as the agency
      interprets a “supplement” to the generic EIS. The purpose of
      supplementation is to update the understanding of environmental
      impacts. The generic EIS analyzed in-situ uranium recovery in four broad
      geographic regions. The tiered site-specific EISs do not update the
      generic EIS analysis. Therefore, the subsequent site-specific EISs cannot
      be “supplements” to the generic EIS.

      A supplemental analysis supports the original analysis in a site-specific
      EIS. In tiering, the generic EIS supports the site-specific analysis that
      takes place once a specific application is received by the agency. The


                                          48
   Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements




supplemental EIS reviews only the impacts of the new information or
change to the proposed action. The tiered EIS must review all the impacts
of the proposed action for a specific site, drawing on and incorporating by
reference relevant portions of the generic EIS.

The agency also asserts that the Council on Environmental Quality
definition of tiering characterizes the tiered site-specific EIS as a
supplement. The full text of the definition of the term tiering reads:

       Tiering is appropriate when the sequence of statements or
       analyses is: (a) From a program, plan, or policy environmental
       impact statement to a program, plan, or policy statement or
       analysis of lesser scope or to a site-specific statement or analysis.
       (b) From an environmental impact statement on a specific action
       at an early stage (such as need and site selection) to a
       supplement (which is preferred) or a subsequent statement or
       analysis at a later stage (such as environmental mitigation).
       Tiering in such cases is appropriate when it helps the lead agency
       to focus on the issues which are ripe for decision and exclude from
       consideration issues already decided or not yet ripe. [emphasis
       added]

The use of supplement in this definition is limited. An example from NRC
practice is the preparation of a supplemental EIS for a combined license
for a power reactor, when a final EIS has been prepared and published for
an early site permit. The early and late stages are considering the same
specific site. By contrast, the generic EIS for in-situ uranium recovery
includes no discussion of matters at an early stage of a particular site.
Therefore, the site-specific EIS for an in-situ uranium recovery application
cannot be considered a “supplement” using the Council on Environmental
Quality definition of tiering.

NRC Commitments to the Public During Generic EIS Scoping

OIG disagrees that scoping for the generic EIS adequately fulfills the
scoping requirement for tiered site-specific EISs. Not only is site-specific
scoping required, but NRC also represented to the public that scoping
would be conducted for site-specific EISs for in-situ uranium recovery
projects.

                                   49
   Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental Impact Statements



At the public meetings and in written comments, members of the public
asked questions and expressed concern about how specific sites for in-
situ uranium recovery would be considered after the generic EIS. In
response, NRC assured the public that if a site-specific EIS were
prepared, the agency would then conduct a site-specific scoping process.
Specifically, the draft generic EIS stated:

       If the NRC staff concludes that it needs to prepare a site-specific
       EIS, a notice of intent will be published in the Federal Register.
       Then, the NRC staff will follow the public participation procedures
       outlined in 10 CFR Part 51, which include requests for public
       input on the scope of the EIS and for public comment on the draft
       EIS for ISL [in-situ recovery] applications. [emphasis added]

However, after the public comment period on the draft generic EIS closed,
the NRC approach changed. When the final generic EIS was published,
the agency stated that it would prepare a site-specific EIS which would be
called a “supplement” and scoping would optional.

Comments on a Draft EIS Are Not the Same as Scoping Participation

The purposes of public participation during scoping and public comment
on a draft EIS are different. Public comment during scoping provides an
opportunity to shape the environmental review before it begins, but public
comment on a draft EIS relates to the results of the environmental review.

The agency added a column to Table 5 of the report. The added column
shows the dates of the comment periods for the draft site-specific EISs.
However, Table 5 relates to the scoping process. Because the purposes
of the two public participation opportunities are different, the agency’s
annotations to Table 5 are irrelevant.




                                   50
